geass
\

OCKLE

2311 Douglas Street CA A E-Mail Address:
Omaha, Nebraska 68102-1214 Legal Briefs

Est. 1923 contact@cocklelegalbriefs.com

1-800-225-6964
(402) 342-2831
Fax: (402) 342-4850

Web Site
www.cocklelegalbriefs.com

No. 20-582

SHADRECK KIFAYATUTHELEZI
A/K/A NORMAN HAYES,
Petitioner,
v.
SOUTH CAROLINA DEPARTMENT OF CORRECTIONS
AND MICHAEL STOBBE,
Respondents.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), | certify that the BRIEF IN OPPOSITION in
the above entitled case complies with the typeface requirement of Supreme Court Rule 33.1(b),
being prepared in New Century Schoolbook 12 point for the text and 10 point for the footnotes,

and this brief contains 4242 words, excluding the parts that are exempted by Supreme Court Rule
33.1(d), as needed.

Subscribed and sworn to before me this 3rd day of December, 2020.
1am duly authorized under the laws of the State of Nebraska to administer oaths.

on WOTARY-State of Nebraska Kone & Chk
RENEE J. GOSS 9 E
My Comm. Exp. September 5, 2023 .
Notary Public

Affiant 40397
